U.S. Department of                                             The lnspector General               Officeof lnspector General
Transportation                                                                                     Washington. D.C. 20590
Officeof the Secretary
of Transportation




   October 10,2006


   The Honorable Christopher "Kit" Bond                         The Honorable Joe Knollenberg
   Chairman                                                     Chairman
   Subcommittee on Transportation,                              Subcommittee on Transportation,
   Treasury, the Judiciary,                                     Treasury, Housing and Urban
   Housing and Urban Development,                               Development, the Judiciary,
   and Related Agencies                                         and District of Columbia
   Committee,on Appropriations                                  Committee on Appropriations
   United States Senate                                         United States House of Representatives
   Washington, DC 205 10                                        Washington, DC 205 15

   The Honorable Patty Murray                                   The Honorable John W. Olver
   Ranking Member                                               Ranking Member
   Subcommittee on Transportation,                              Subcommittee on Transportation,
   Treasury, the Judiciary,                                     Treasury, Housing and Urban
   Housing and Urban Development,                               Development, the Judiciary,
   and Related Agencies                                         and District of Columbia
   Committee on Appropriations                                  Committee on Appropriations
   United States Senate                                         United States House of Representatives
   Washington, DC 205 10                                        Washington, DC 205 15

   Dear Chairmen Bond and Knollenberg and Ranking Members Murray and Olver:

   This report1 (1) presents our fourth quarterly assessment of the savings2 Amtrak
   has achieved fi-om operational reforms and (2) includes our evaluation of the
   Department of Transportation's (DOT) efforts to set and collect access fees from
   commuter railroads for use of Amtrak-owned infrastructure on the Northeast
   Corridor (NEC).~


   '   The Transportation, Treasury, Housing and Urban Development, the Judiciary, District of Columbia, and
       Independent Agencies Appropriations Act, 2006 required our off~ceto report quarterly to your Committees whether
       or not, and to what extent, Amtrak has achieved savings from operational reforms.
       Defined throughout as either net operating savings or a reduction in net operating losses.
       The report accompanying the FY 2006 Appropriations Act directed our office to include an assessment of the
       Department's efforts to set and collect fees from commuter railroads for the use of Amtrak-owned infrastructure on
       the Northeast Corridor beginning with the July quarterly report.
Summary

• Amtrak has achieved operational savings of $5.1 million through July 2006.4
  This compares to the $3.8 million in savings we certified Amtrak had achieved
  through May 2006 in our July quarterly report.

• Amtrak has achieved $51.2 million in savings through July 2006 from all its
  FY 2006 operational reforms.

• These overall savings from reform contribute to Amtrak’s current better-than-
  expected financial performance. Through August, Amtrak’s operating loss
  was $122 million below the year-to-date projected loss in the $586 million
  subsidy baseline5 (see Figure 1 on page 4). As such, barring any unexpected
  losses, Amtrak will achieve the required savings to operate within its FY 2006
  appropriation.

• Amtrak estimates its financial performance will continue to improve and, as a
  result, expects to end FY 2006 with a $209 million cash balance. Also,
  Amtrak expects to add to this balance another $11 million from claims
  settlements.

• Looking toward FY 2007 and FY 2008, Amtrak will need to maintain progress
  in implementing operational reforms to continue to reduce its reliance on
  Federal operating subsidies. It will be necessary for Amtrak to move beyond
  the “low-hanging fruit” and begin to implement more difficult reforms in food
  and beverage service, sleeper car service, route restructuring, state payments,
  and labor contracts.

• Critical to Amtrak’s ability to increase its efficiency and reduce unit costs will
  be the development of a managerial accounting system. Amtrak is developing
  a system that will replace its legacy activity-based Route Profitability System
  with one that will support both avoidable and full-cost methodologies and
  provide business-line and route level activity-based analysis. This office is
  monitoring Amtrak’s development of this system, both to help ensure it is well
  designed and to respond better to congressional direction that we report on the
  strengths and weaknesses of the system after it is implemented.6

4
    The report reflects two related data sets, Amtrak’s corporate financial results and its savings from ongoing reforms.
    The corporate results are current through August 2006 and the ongoing reform data are current through July 2006.
    This is because Amtrak must update its performance databases, such as its Route Profitability System, after the
    corporate results are made available to calculate the ongoing reforms. Also, throughout the report the reference
    “through a specified date” means from October 1, 2005 to that date.
5
    The $586 million subsidy baseline is described on page 3.
6
    The FY 2006 Appropriations Act requires that we, within 30 days of development of the managerial cost accounting
    system, review and comment to the Secretary and the House and Senate Appropriations Committees on the strengths


CC-2006-068                                                                                                            2
• Since our July report, FRA has completed its assessment of the annual capital
   and maintenance costs to Amtrak associated with the use of Amtrak-owned
   infrastructure on the NEC by commuter authorities. By letter dated
   October 10, 2006 FRA notified the House and Senate Appropriations
   Committees and relevant Subcommittees that the department has decided not
   to pursue the collection of commuter access fees that they were directed to
   collect by the FY 2006 Appropriations bill. This decision was based on FRA’s
   analysis which concluded that, on the whole, the commuter authorities on the
   NEC paid their fully allocated share of maintenance and capital costs in
   FY 2006. (see Appendix C)

Structure of This Letter

In our January 2006 report, we stated that we would evaluate Amtrak’s net
operating savings on four levels of detail: (1) corporate; (2) business line; (3)
route; and (4) strategic reform initiatives, that is, operational reforms. Amtrak’s
net operating savings are measured against the FY 2006 operating subsidy
baseline of $586 million that we established in January.

Data Reliability

This report relies upon data generated by Amtrak’s current revenue and cost
accounting systems. These systems do not readily support the reporting and
analysis of data on an initiative-level basis. To overcome this shortcoming,
Amtrak established new departmental tracking systems to measure savings from
initiatives. These new systems draw on data from: (1) Amtrak’s financial
information system or general ledger, (2) savings specified by contract, and
(3) assumptions based on expected activity levels. These new systems and our
work with Amtrak to improve its methodology resulted in new savings estimates
that eliminated the double-counting of benefits for some initiatives. These
improvements eliminated our earlier concerns about the reliability of Amtrak’s
savings estimates.

Amtrak continues to improve its data integrity. As part of this effort, it is
developing a new project management system that refines the level of detail for
each of the 15 areas of strategic reform and links the initiatives to its financial
systems for accurate reporting. Amtrak expects to present the new system to the
Board of Directors later this year and we will report on this in more detail in our
January 2007 quarterly report.



 and weaknesses of the system and how it best can be implemented to improve decision making by the Board of
 Directors and management of the Corporation.


CC-2006-068                                                                                              3
$586 Million Subsidy Baseline

The $586 million subsidy baseline reflects Amtrak’s expected operating loss based
upon the FY 2006 budget approved by its Board of Directors in September 2005.
That is, the operational reforms specified in that budget would result in a projected
operating loss of $586 million.

To operate within the FY 2006 appropriated Federal operating subsidy, Amtrak
must reduce its operating loss from the $586 million subsidy baseline to the
appropriated subsidy of $485 million. This requires net savings of $101 million
beyond the operational reforms specifically included in the $586 million baseline.

Corporate Level Results

Amtrak’s overall financial performance continues to be better than expected, and,
barring any unforeseen adverse events in September, Amtrak will have
successfully managed to operate within its FY 2006 appropriation of $485 million.
Further, it has reduced its operating loss $122 million below the year-to-date loss
projected in the $586 million subsidy baseline (see Figure 1).

                                                     Figure 1. Amtrak Operating Loss
                                                   FY 2006 Year-to-Date through August

                        Oct        Nov          Dec         Jan        Feb         Mar         Apr         May        Jun         Jul       Aug       Sep
                   0
                           (39)
                                         (65)
                        (51)
                                                   (109)
                                  (99)                        (163)

                                                (150)                   (212)
                (200)

                                                           (219)                      (255)                       $122 million savings to date
                                                                                                  (283)
$ in millions




                                                                      (283)                                   (320)
                                                                                                                         (346)
                                                                                  (333)                                             (377)
                                                                                                                                              (409)
                (400)
                                                                                              (375)




                                     $485 million
                                                                                                          (419)

                                                                                                                      (450)
                                                                                                                                 (488)
                                                                                                                                                }
                                   Federal Subsidy                                                                                          (531)
                (600)
                                                                                                                                                      (586)
                                                                         Actual           Baseline Budget




Amtrak’s financial performance through August reflects savings (compared to
budget estimates) of $67.8 million from revenue increases and $55.7 million from
reduced labor costs offset by net increases of $1.5 million in other expenses.


CC-2006-068                                                                                                                                                   4
The $67.8 million revenue increase includes $32.1 million in passenger ticket
revenue, due in part to Amtrak’s system-wide general fare increases and the
implementation of variable fares (i.e., revenue management7) for the NEC
Regional and Acela services, and $35.8 million from commuter revenues and non-
passenger revenues.8 High gas prices have made passenger rail more competitive
with other travel options, making fare increases more sustainable than they may
otherwise have been. Through August 2006 average ticket prices were 9.3 percent
higher than through August 2005. The $55.7 million in reduced labor costs
primarily reflects a total employment level that was 1,605 lower than planned.

Net increases of $1.5 million in other expenses reflect mixed results by Amtrak in
several areas. Other cost savings include reduced on-board services costs of
$2.1 million, reduced corporate overhead expenses (e.g., professional fees and
data processing), which were $14.0 million less than expected, and lower train
operations costs, which were $4.3 million below projected levels due to lower
schedule adherence payments to host freight railroads, and $2.8 million in lower
maintenance of equipment materials costs. However, these savings were partially
offset by increases in expenses above the $19.6 million budgeted for train fuel and
purchased power costs and the $4.6 million budgeted for maintenance of way
materials costs. Additional net increases totaled $0.5 million.

Amtrak projects it will end FY 2006 with a $209 million cash balance,
$134 million more cash on hand than at the end of FY 2005. Amtrak originally
anticipated having to draw down its cash balances in FY 2006 to make ends meet.
Instead, based on current projections, it will be able to increase these balances.

Business Line Results

As shown in Table 1 on the following page, most of Amtrak’s improved
performance to date comes from the National Train System Operations (core)
business line. Through August 2006, losses from Amtrak’s core operations were
$80.6 million less than expected, relative to the $586 million subsidy baseline.
Amtrak achieved additional savings of $41.4 million from its Infrastructure
Management, Ancillary Business (commuter, reimbursable, and commercial
operations), and Unallocated Systems (overhead) business lines.




7
    Amtrak extended its current revenue management practices to the NEC Regional and Acela trains. Amtrak is
    charging variable fares, based on demand levels, rather than the previous peak/non-peak fare approach.
8
    Non-passenger revenues include reimbursable, commercial development, other transportation and freight access fees
    and miscellaneous one-time revenues.


CC-2006-068                                                                                                        5
 Table 1. Amtrak Net Profit/(Loss), Excluding Federal Operating Subsidies*
              FY 2006 – Year to Date through August ($ in Millions)

                                                                                             Compared
 Business Line                                            Actual          Baseline
                                                                                            to Baseline
 National Train System Operations                       ($271.1)          ($351.7)                $80.6
     NEC                                                    208.8             177.8                 31.0
     State Supported and Other Corridors                    (75.5)            (92.5)                17.0
     Long-Distance Service                                (404.3)           (436.9)                 32.6
 Infrastructure Management                                 (52.4)            (68.0)                15.6
 Ancillary Business                                          80.2              62.7                17.5
 Unallocated System                                      (165.7)           (174.0)                   8.3
  Total                                                 ($409.0)          ($531.0)              $122.0
* Amtrak reports these financials on an earnings before interest, taxes, depreciation and OPEBs (other post-
  employment benefits) basis.


Route Level Results

Amtrak’s Simplified Dining program has been implemented on all of its long
distance trains, except the Auto Train and the Empire Builder. Savings from
Simplified Dining are measurable by route and are shown in Table 2 on the
following page. The initiative incurs additional costs for food stock and supplies
due to the pre-preparation and packaging of meals; however, the significant labor
savings produce a net benefit to the initiative. Net savings from Simplified Dining
were $2.5 million through July 2006.




CC-2006-068                                                                                                6
          Table 2. Simplified Dining Program Net Operating Savings
            FY 2006 – Year to Date through July ($ in Thousands)
 Long Distance           Months in      Labor     Non-Labor      Net
 Service                 Operation     Savings     (Loss)   Savings/(Loss)
 City of New Orleans          6         $265.5      ($158.9)          $106.6
 Texas Eagle                  6          422.3        (310.3)          112.0
 Sunset Limited               6          748.4         (75.1)          673.3
 Capitol Limited              6          266.1        (184.4)           81.7
 Silver Star                  4          239.7        (195.7)           44.0
 Lakeshore Limited            4          162.8        (142.6)           20.2
 Southwest Chief              4        1,107.7        (327.9)          779.8
 Silver Meteor                4          239.7        (195.7)           44.0
 Crescent                     3          302.4        (169.6)          132.8
 Coast Starlight              3          767.9        (214.9)          553.0
 California Zephyr            2          208.6        (227.9)          (19.3)
   Total Savings                      $4,731.1     ($2,203.0)       $2,528.1

Route-level savings that were included in the Board-approved budget have come
from the elimination of food service on some Empire Corridor trains, enhanced
service on the Empire Builder, and the closure of the Albany Commissary. These
initiatives resulted in $4.7 million in route-level savings through July 2006.

Strategic Reform Initiatives (Operational Reforms)

Amtrak identified 15 areas of operational reforms aimed at reducing long-term
annual operating losses (see Appendix A). Since our July report, Amtrak has
completed annual savings estimates and defined the implementation periods for
seven additional initiatives. However, implementation plans remain to be
completed for four initiatives: service reliability, ongoing efficiencies, NEC
operations, and labor contracts.

Amtrak has achieved $51.2 million in savings from all operational reforms
through July 2006. These savings fall into two categories: $46.1 million from
reforms already reflected in Amtrak’s FY 2006 Board-approved budget and $5.1
million from operational reforms beyond those included in Amtrak’s FY 2006
Board-approved budget.




CC-2006-068                                                                 7
Amtrak’s progress on reforms already reflected in the Board-approved budget is
presented in Appendix B, Table B-3. The operational reforms beyond those
included in the Board-approved budget (which were the focus of our July
certification) are presented in Appendix B, Table B-2. These operational reforms
include the following.

• Food and Beverage Reform. Amtrak expects to achieve $4.8 million in
   operating savings in FY 2006 from several modifications to its food and
   beverage service. Through July, Amtrak realized $3.3 million in net operating
   savings from these modifications. The largest projected benefit is from its
   Simplified Dining program, which was fully implemented in May 2006. This
   program primarily relies on fully prepared food products that require only
   heating on-board in a convection or microwave oven and uses disposable
   dinnerware. Through July, net cost savings from Simplified Dining was
   $2.5 million. Amtrak also saved $729,167 through July by renegotiating the
   food supplier contract with Gate Gourmet.

   Finally, Amtrak plans to offer continuous, restaurant-style dining service and
   enhanced customer service, which are expected to increase food revenues. The
   program includes a new dining car advance reservation system to improve
   customer service, reduce on-board spoilage, and increase coach passengers’
   spending in the dining car.

• Corporate Overhead. Amtrak expects to achieve $1.4 million in operating
   savings from technology efficiencies this year. Through July, Amtrak realized
   $1.1 million of those expected savings. These have come from reducing costs
   of third party information technology providers; lower software, storage, and
   communications costs; and increased management controls. Additionally,
   energy management efficiencies achieved through enhanced oversight of utility
   expenditures and new contracts resulted in additional savings of $780,000 in
   savings through July 2006. These savings exceeded the $450,000 estimated
   annual savings and reflect commuter traction power contract savings resulting
   from to higher energy costs billed back to commuters.

• Other Operational Reforms.       Several additional operational reforms are
   described in Appendix A. Although none of these reforms are expected to
   generate savings in FY 2006, they are expected to generate additional savings
   beginning in FY 2007.




CC-2006-068                                                                    8
Amtrak Anticipates Increased Savings From Operational Reforms in
FY 2007

Amtrak has projected that it will achieve $61.2 million in cost savings in FY 2007
from ongoing and new reform initiatives. The largest savings - nearly $40 million
- will come from food and beverage service and sleeper service restructuring. The
remaining savings will come from implementation of maintenance efficiencies and
rationalizing facilities, labor savings at stations and call centers, increased Acela
revenues from improvements in on-time performance, and continued reductions in
overhead costs and engineering efficiencies.

Food and Beverage Service. Amtrak estimates total food and beverage savings
for FY 2007 at $19.3 million. Upon full implementation, total food and beverage
savings are expected to range from $34 million to $76 million per year. Several
sub-initiatives contribute to these savings. Amtrak’s redesigned food service
(Simplified Dining) is fully operational and Amtrak projects $15.2 million in cost
savings from this program in FY 2007. The renegotiated Gate Gourmet contract
and outsourcing of food and beverage revenue collection, initiatives implemented
this year, are expected to yield an additional $3.6 million in savings.

With the redesign of both the Superliner diner and lounge cars Amtrak plans to
create a combined car that will eliminate the need for one car from the consist,
increase the availability of food service, and reduce overall costs. Amtrak expects
to achieve modest savings of $0.5 million next year as dining cars that have been
converted to diner/lounge cars are put into service. The first such car is expected
to become available in January 2007, with full implementation expected by
October 2008. Amtrak has issued an RFP to convert the lounge cars to the
redesigned combined diner/lounge cars. However, these are not expected to roll
out before August 2007, with essentially no impact in FY 2007.

Restructuring Sleeper Service. In FY 2007, Amtrak expects up to $20 million in
cost savings from this initiative. This is a good start. Outyear projections are still
being developed. Amtrak’s sleeper service restructuring initiative will reduce
sleeper service losses through a series of actions designed to reduce incremental
costs associated with sleeper service, including food and beverage service
modifications, “right-sizing” staffing and equipment, mechanical efficiencies and
other reforms.

Other FY 2007 Reforms. Amtrak expects savings of $22.2 million in FY 2007
from implementing other reforms. For example, in the area of mechanical
efficiency, Amtrak plans to implement its Reliability Centered Maintenance
program on all 15 Acela trainsets, outsource appropriate maintenance activities,
and continue its facility consolidation. These efforts are expected to yield


CC-2006-068                                                                         9
$7.0 million in savings next year. Additionally, increasing the number of self-
ticketing machines in stations and outsourcing reservations functions are expected
to save $4.8 million and reduced overhead costs. Ongoing engineering labor
efficiencies are expected to save another $8.2 million.           These latter three
initiatives continue programs that began earlier this year. Improvements in NEC
operations, including revenues from improved Acela on-time performance, are
expected to result in $3.2 million in savings. Several initiatives, such as network
and service restructuring, efficiencies in NEC operations, and development of a
new management information system, are expected to incur upfront capital costs
of $1.1 million next year, offsetting some of the gains in savings.

Improved Oversight and Management of Reforms. Amtrak is refining its
oversight and management of its Strategic Reform Initiatives (SRI).        It has
launched a Program Management Office (PMO) within its Planning and Analysis
Department to facilitate the successful implementation of the SRI Program. The
PMO is responsible for developing an enterprise-wide approach to manage this
large-scale effort, with responsibilities ranging from providing oversight of the
SRI Program, implementing project management tools and methods, providing
project management training, facilitating cross-functional collaboration, and
delivering timely and accurate project status reports. The first automated SRI
Program monthly status report is expected to be issued early in 2007, which will
provide project scheduling, milestones, and savings. The PMO is working with
Amtrak’s Finance Department to ensure the appropriate links to Amtrak’s
financial systems for reliable reporting of cost savings.

Amtrak is to be commended for this effort which we believe will help focus
management attention on and better quantify long-term benefits from Amtrak’s
cost saving initiatives. Combined with the development of a managerial cost
accounting system that supports avoidable and full-cost analysis capabilities9 by
business-line and route level activity, will better equip Amtrak with the
management tools for ensuring sustained reform.

Sustained Reform Over the Next Several Years is Needed to Continue
Reducing Amtrak’s Operating Subsidy

In our July report, we stated that Amtrak’s ability to achieve additional reductions
in its Federal operating subsidy will take significant effort by Amtrak’s Board of
Directors and its management over the next several years. We highlighted the
need for continuous self-evaluation and reform and indicated that it is difficult to
see how Amtrak can achieve further significant reductions within its Federal

9
    Avoidable costs are those that would not be incurred if a service was not provided, for example, fuel cost.
    Full-cost methodology allocates all costs to Amtrak’s functions, including overhead.


CC-2006-068                                                                                                10
operating subsidy without addressing state-supported services, route restructuring,
and labor contracts. The Board and Amtrak’s efforts are ongoing in these areas.
The key is for the Board and Amtrak management to follow through in ensuring
that these goals are achieved.

Conclusion

This past year Congress directed Amtrak to achieve savings from operational
reforms and put accountability measures in place to ensure that it followed through
on those reforms. As part of this effort Congress required this office to report on
and certify Amtrak’s achievement of operational reform savings.                 This
requirement, in conjunction with constrained appropriations, the Department’s
grant application review process, and the Amtrak Reform Board’s strategic reform
initiatives has resulted in modest savings from the first stages of a limited number
of operational reform initiatives. Absent a reauthorization, it is our opinion that
this process will remain an important means to hold Amtrak accountable for
improving the efficiency of delivering inter-city passenger rail service in this
country.

Under separate cover, we are transmitting copies of this letter to the Secretary of
Transportation and the Chairman of the Board of Amtrak. If you have any
questions concerning this letter, please call me at (202) 366-1959 or David E.
Tornquist, Assistant Inspector General for Competition and Economic Analysis, at
(202) 366-9970.

Sincerely,




Todd J. Zinser
Acting Inspector General

Enclosures




CC-2006-068                                                                      11
                    Appendix A. Amtrak’s Operational Reforms Description

                           Table A. Amtrak’s Proposed Operational Reforms

                                                                         Annual Savings
       Reform                                                                Targets       Implementation
                                          Objective
      Initiative                                                          (constant $ in       Period
                                                                            millions)
 Corporate


1. Food and             Enhance service flexibility, redesign                                 FY 2006-
                                                                             $34-76
   beverage             equipment, and outsource certain services                             FY 2010


                        Adopt reliability-centered maintenance,
                                                                                              FY 2006-
2. Mechanical           consolidate facilities, and outsource selected       30-75
                                                                                              FY 2012
                        activities

                        Modernize ticket issuance, collection, and
3. Customer                                                                                   FY 2006-
                        reporting processes and improve service              12-19
   service                                                                                    FY 2010
                        quality measurement and delivery

                        Develop more accurate and timely
4. Management                                                                                 FY 2006-
                        information on costs of routes, individual           12-25
   information                                                                                FY 2012
                        activities, and functions

                        Reduce station operating costs by deploying
                        more efficient communications and                                     FY 2007-
5. Stations                                                                  11-19
                        sales/distribution equipment and processes                            FY 2011
                        at stations

                        Reduce ticketing costs by reducing staffing,
                                                                                              FY 2007-
6. Call Centers         increasing utilization of lower cost                 10-14
                                                                                              FY 2011
                        distribution channels, and outsourcing

                        Reduce unit costs of corporate support
7. Overhead             functions through selective outsourcing,                              FY 2007-
                                                                             17-25
   functions            staffing reductions, skills development, and                          FY 2011
                        greater use of technology
                        Improve on-time performance of Acela and
8. Service                                                                                    FY 2006-
                        NEC trains through operational modifications          TBD
   reliability                                                                                FY 2012
                        and targeted investments
TBD: To be determined




          CC-2006-068                                                                          A-1
                         Table A. Amtrak’s Proposed Operational Reforms (cont.)

                           Reduce unit costs and increase flexibility by
                           negotiating new labor agreements that
 9. Labor
                           eliminate certain work rule and outsourcing                        TBD*                         TBD
    contracts
                           restrictions, and base wages on market
                           levels
                           Enhance financial performance of other
                           activities and functions through continued
 10. Ongoing                                                                                                         FY 2006-
                           business improvements (e.g., operating crew                         TBD
     efficiencies                                                                                                    FY 2011
                           optimization, maintenance of way
                           productivity)
 Business Line

                           Improve performance of all routes by
                           redefining sub-brands, restructuring,                                                     FY 2007-
 1. Long Distance                                                                            50-100*
                           services/routes, selected luxury outsourcing,                                             FY 2012
                           and corporate initiatives
                           Boost financial contribution through
 2. NEC                    improved load factors, adjusted service
                                                                                               TBD                         TBD
    Operations             patterns, re-launching sub-brands, trip time
                           investments, and corporate initiatives
                           Improve competitiveness of state services,
                           establish pilot competition project, and                                                  FY 2008-
 3. Corridors                                                                                50-100*
                           transition states to full cost recovery for all                                           FY 2012
                           corridor routes
                           Optimize use of fleet, maximize load factors,
 4. Fleet                  and increase revenues by improving current                                                FY 2007-
                                                                                              12-32
    Utilization            train consist efficiency and retiring or                                                  FY 2011
                           redeploying excess equipment
                           Develop a long-term capital master plan and
                           operate NEC efficiently on behalf of all                                                  FY 2008-
 5. Infrastructure                                                                           20-40*
                           users, while establishing a fair sharing of                                               FY 2011
                           operating and capital costs among all users

                                                                                                                     FY 2007-
 Total                                                                                      $258-525
                                                                                                                     FY 2012
Source: Amtrak Strategic Planning Department
* Amtrak will need to obtain significant external stakeholder participation and/or legislative action to fully implement
  proposed operational reforms; targets are preliminary.




           CC-2006-068                                                                                                 A-2
   Appendix B. Amtrak’s Savings to Date from Operational Reforms
Table B-1 presents the estimated annual savings and year-to-date savings, broken
out by a framework of sub-baselines, from all operational reforms in FY 2006.
Tables B-2 and B-3 present the savings from operational reforms beyond those
included in the FY 2006 Board-approved budget and included in the FY 2006
Board-approved budget respectively.


              Table B-1. Summary of Amtrak Savings by Sub-Baseline
              FY 2006 Year to Date through July 2006 ($ in thousands)
                                     Estimated   Estimated     Actual
  Amtrak Net Operating Savings        Annual        YTD         YTD       Variance
                                      Benefit     Benefit      Benefit       +/-
Corporate Initiatives                 $19,118     $15,757     $25,099      $9,342
Food and Beverage                       7,687       6,242      12,740        6,498
  OBS Labor                             7,919       5,513       7,156        1,643
  Commissary Labor and Support            266         266         289           23
  F&B Stock Supplies (non-labor)      (1,465)       (481)       4,638        5,119
  Food & Beverage Revenue                 967         944         657        (287)
Train Operations                        6,284       5,280       7,619        2,339
  Labor Efficiencies                    5,228       4,313       3,201      (1,112)
  Fuel Conservation                     1,056         967       4,418        3,451
Corporate Overhead                      5,147       4,235       4,740          505
  Law Department Efficiencies           1,400       1,200       1,300          100
  Technology Efficiencies               3,297       2,660       2,660            --
  Energy Management                       450         375         780          405
Business Line Initiatives             18,613       15,259      26,134      10,875
Long Distance Train Service             2,600       2,453       3,573        1,120
  Enhanced Service Offerings            2,600       2,453       3,573        1,120
NEC Operations                        16,013       12,806      22,561        9,755
  Fare and Revenue Management         15,000       12,000      18,530        6,530
  Labor Efficiencies                    1,013         806       4,031        3,225
 Total                               $37,731      $31,016     $51,233     $20,217




CC-2006-068                                                                 B-1
  Table B-2. Summary of Reforms Beyond the FY 2006 Board-Approved Budget
             FY 2006 Year to Date through July 2006 ($ in thousands)

  Amtrak Net Operating Cost        Estimated     Estimated     Actual
          Savings                   Annual          YTD         YTD       Variance
                                    Benefit       Benefit      Benefit       +/-
Food and Beverage                      $4,788       $3,353      $3,257       $(96)
  OBS Labor                              7,233        4,827       4,731       (96)
  F&B Stock Supplies (non-labor)       (2,446)      (1,474)     (1,474)          --
Corporate Overhead                       1,829        1,459       1,864       405
  Technology Efficiencies                1,379        1,084       1,084          --
  Energy Management                        450          375         780       405
 Total                                 $6,617       $4,812       $5,121       $309



     Table B-3. Summary of Reforms in the FY 2006 Board-Approved Budget
             FY 2006 Year to Date through July 2006 ($ in thousands)
                                     Estimated    Estimated     Actual
  Amtrak Net Operating Savings        Annual         YTD         YTD      Variance
                                      Benefit      Benefit     Benefit       +/-
Food & Beverage                        $2,899      $2,889      $9,483       $6,594
  OBS Labor                               686         686       2,425         1,739
  Commissary Labor and Support            266         266         289            23
  F&B Stock Supplies (non-labor)          981         993       6,112         5,119
  Food & Beverage Revenue                 967         944         657         (287)
Train Operations                        6,284       5,280       7,619         2,339
  Labor Efficiencies                    5,228       4,313       3,201       (1,112)
  Fuel Conservation                     1,056         967       4,418         3,451
Corporate Overhead                      3,318       2,776       2,876           100
  Law Department Efficiencies           1,400       1,200       1,300           100
  Technology Efficiencies               1,918       1,576       1,576             --
Long-Distance Train Service             2,600       2,453       3,573         1,120
  Redefining Service Offerings          2,600       2,453       3,573         1,120
NEC Operations                         16,013      12,806      22,561         9,755
  Fare and Revenue Management          15,000      12,000      18,530         6,530
  Labor Efficiencies                    1,013         806       4,031         3,225
 Total                                $31,114     $26,204     $46,112      $19,908




   CC-2006-068                                                                B-2
Analysis of Progress on Reforms in the FY 2006 Board-Approved Budget

Amtrak reported $46.1 million in savings through July 2006 from operational
reforms that were included in the FY 2006 Board-approved budget. Progress-to-
date is summarized below.

• Food and Beverage Reform. During FY 2005, Amtrak (1) renegotiated
   contracts with its food vendors; (2) eliminated food service on the Empire
   Corridor (between New York, New York and Albany, New York), which
   allowed Amtrak to close the Albany commissary in July 2005; and
   (3) increased menu prices on its food and beverage service. These initiatives
   resulted in $9.5 million in savings through July 2006, exceeding the
   $2.9 million in projected annual savings. These savings include $6.1 million in
   food supplies, $289,000 in commissary labor, and $2.4 million in OBS labor.

• Train Operations. Amtrak has several sub-initiatives underway, including
   consolidation of facilities and work functions and conservation of train fuel.
   - Our April report included discussion of an initiative to consolidate
       Amtrak’s Amfleet maintenance from Albany to Washington, DC, which
       would eliminate 17 mechanic positions with an associated cost savings of
       $1.2 million. Although the maintenance work for the Amfleet equipment
       has moved to Washington, DC, F-40 locomotive overhaul work for the
       Keystone Corridor service in Pennsylvania has delayed the staff
       elimination. As a result, there are no labor savings to report. The labor
       reduction is expected to occur by the end of the year.
   - Additional initiatives are underway to improve labor productivity by
       reducing allowable overtime in Amtrak’s Mechanical Division and
       reducing core straight time wages in Amtrak’s Engineering Division by
       4 percent. These are budgeted to save $5.2 million in FY 2006. Through
       July 2006, Amtrak reported savings of about $3.2 million.
   - Through July 2006, Amtrak reported about $4.0 million in additional labor
       cost savings from improved crew management in the NEC.
   - Amtrak expects to reduce consumption of train fuel by 1 percent through
       improved locomotive handling and utilization, which is estimated to result
       in an annual operating cost savings of $1.1 million. Through July 2006,
       Amtrak has achieved a better-than-expected cost reduction of $4.4 million,
       based on a fuel cost of $1.83 per gallon. However, these savings from
       reduced fuel consumption were offset by an increase in the average price
       per gallon for fuel to $2.10 per gallon and resulted in core fuel costs that
       were $8.6 million higher than budgeted.



CC-2006-068                                                                     B-3
• Corporate Overhead. Overhead efficiencies implemented this year include a
   reduction in outside legal fees, software, and communications costs. Savings
   in FY 2006 are estimated at $3.3 million, with Amtrak reporting just over
   $2.9 million in savings through July 2006.

• Long-Distance Train Service. As part of an initiative to reposition the Empire
   Builder service as a luxury service, Amtrak rolled out an enhanced service
   offering in August 2005. This is the only reform of long-distance service
   Amtrak has implemented so far (excluding food and beverage initiatives). The
   enhanced service included refurbished sleeper, coach, and lounge cars; food
   and beverage upgrades, including additional on-board personnel; and a refocus
   on customer service. Ticket revenue on the Empire Builder was 16.6 percent
   higher ($5.4 million) on a cumulative year-over-year basis through July 2006
   and 4.9 percent higher than budget ($1.7 million). This reflects a slight
   decrease in performance in July due to higher prices which caused some
   ridership reductions in sleeper class. Sleeper Class accounted for $2.9 million
   of the revenue increase through July and 3,236 of the 13,879 gain in FY 2006
   ridership. Ridership increased 3.6 percent over the same period a year ago and
   1.5 percent higher than budget.          Operating losses through July were
   $3.6 million lower than the same period a year ago, exceeding Amtrak’s
   expectations of a $2.6 million annual improvement from this initiative.
   However, the service continues to lose money. Last year, this train lost
   $45 million and had lost $37.1 million through July 2006.

• NEC Operations. In October 2005, Amtrak began revenue management on
   NEC’s Regional Service and on the Acela in February 2006 by implementing
   variable rates on Acela and Metroliner services based on demand for tickets.
   Amtrak’s FY 2006 budget assumes $15 million will be realized from revenue
   management of the NEC trains. Through July, Amtrak estimates $18.5 million
   in revenue is attributable to revenue management. However, it is difficult to
   separate out multiple pricing factors, and Amtrak assumes one-quarter to one-
   half of all revenue increases are due to revenue management. It should also be
   noted that nearly all of these savings are from the Regional and Empire service.
   Acela, which has been weak this year due to increased competition from the
   airlines in the Northend, poor on-time performance, and fewer frequencies, has
   achieved only $1.4 million in benefit.




CC-2006-068                                                                    B-4
                          Appendix C. Commuter Access Fees

Congress requested that our office include an assessment of the Department’s
efforts in assessing and collecting commuter access fees as a part of our quarterly
reports. The FY 2006 Appropriations Act directed the Secretary to:
       • determine the annual capital and maintenance costs to Amtrak associated
         with the use of Amtrak-owned infrastructure on the Northeast Corridor by
         commuter railroads that operate over that corridor,10
       • assess and collect appropriate fees from the commuter railroads for any
         direct capital and maintenance costs based on relative infrastructure usage,
         and
       • account fully for the contributions that commuter railroads currently make
         toward these costs in determining appropriate fees.

Since our July report, FRA has completed its assessment of the annual capital and
maintenance costs to Amtrak associated with the use of Amtrak-owned
infrastructure on the Northeast Corridor by commuter authorities. By letter dated
October 10, 2006 FRA notified the House and Senate Appropriations Committees
and relevant Subcommittees that the department has decided not to pursue the
collection of commuter access fees. This decision was based on FRA’s analysis,
which concluded that, on the whole, the commuter authorities on the NEC are
essentially paying their fully allocated share of maintenance and capital costs and
that any balance due would not be of a magnitude to make the issuance of invoices
a cost effective endeavor.

To fulfill our requirement of assessing the Department’s efforts in this regard, we
have the following observations about certain aspects of the methodology used by
FRA to determine the fees. We recommend that should the issue of commuter
access fees be revisited that the following observations be taken into consideration
when developing the methodology to be used in any subsequent analysis.

First, the suitability of the data upon which the fees would have been calculated
are a concern because the data are being derived, in part, from systems that were
not designed to provide such data on a state, route, or track basis. Second, the
narrow definition of the NEC relied upon by FRA’s methodology (spine only)
relieves commuter railroads using the spur lines from being treated on par with the
commuter railroads using the spine. Third, by their nature, railroad capital and
maintenance costs can require large investments in one fiscal year followed by
10
     There are seven commuter authorities operating over the Amtrak-owned NEC. These include MARC,
     DART, SEPTA, NJ Transit, LIRR, SLE, and MBTA.



CC-2006-068                                                                                  C-1
smaller investments in subsequent years. As a result, the capital and maintenance
contributions in any 1 year may not reflect the average level of contributions over
the long run. Therefore, FRA’s use of 1 year of data may not properly reflect the
longer-term contribution of each party.




CC-2006-068                                                                    C-2
